              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Electronic Recording of Telephone and
Radio Conversations by Los Alamos
National Laboratory Protective Force
Management




DOE/IG-0717                               January 2006
ELECTRONIC RECORDING OF TELEPHONE AND RADIO
CONVERSATIONS BY LOS ALAMOS NATIONAL
LABORATORY PROTECTIVE FORCE MANAGEMENT



TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objectives       1

              Observations and Conclusions      1


              DETAILS OF FINDINGS

              Background                        3

              Consent                           4

              Beep Tones Disabled               5

              Records Management Requirements   5


              RECOMMENDATIONS                   6


              MANAGEMENT COMMENTS               7


              INSPECTOR COMMENTS                7


              APPENDICES

              A. Scope and Methodology          8

              B. Management Comments            9
Overview

INTRODUCTION       The Department of Energy’s (DOE’s) Los Alamos National
AND OBJECTIVES     Laboratory (LANL) is one of the largest multidisciplinary science
                   institutions in the world. The primary national security missions of
                   LANL are to help ensure the safety and reliability of the Nation's
                   nuclear stockpile, prevent the spread of weapons of mass
                   destruction, develop strategies to mitigate global threats, and
                   protect the United States from terrorist attacks. LANL maintains a
                   protective force that is trained and equipped to secure its facilities
                   and operations. LANL is under the cognizance of the National
                   Nuclear Security Administration (NNSA) and is operated for the
                   NNSA by the University of California.

                   During an inspection of security-related matters at Sandia National
                   Laboratory-New Mexico (Sandia), the Office of Inspector General
                   (OIG) received information that Sandia protective force
                   management may be inappropriately recording telephone
                   conversations. During our inquiry into the matter, we were
                   provided information that LANL protective force management also
                   may be inappropriately recording telephone conversations. As a
                   result, we initiated a separate review at LANL to determine
                   whether this information was accurate.

OBSERVATIONS AND   We found that LANL protective force management was regularly
CONCLUSIONS        recording both telephone and radio conversations on channels/lines
                   assigned to its operation and that these recordings were not
                   conducted in compliance with Department policies and procedures.
                   Specifically:

                   •   Telephone conversations requiring all-party consent for each
                       specific instance, such as discussions of administrative matters
                       with protective force officers and conversations with
                       individuals outside the protective force, were recorded without
                       obtaining such consent;

                   •   Telephone line beep tones, which were an acceptable method of
                       alerting all parties to the recording of a conversation, were disabled
                       without an alternative notification mechanism being in operation;
                       and,

                   •   Electronic records of telephone and radio conversations were
                       retained and used without provision for complying with records
                       management requirements.



Page 1                                    Electronic Recording of Telephone and
                                          Radio Conversations by Los Alamos
                                          National Laboratory Protective Force
                                          Management
         Because of the potential implications of our preliminary findings at
         LANL and Sandia, on May 16, 2005, we issued a Management
         Alert on “Issues Associated with the Recording of Telephone and
         Radio Conversations” to the Administrator of the NNSA. We
         wanted to give management an opportunity to take immediate
         corrective action, to include determining whether this problem
         existed at other NNSA sites. We also provided the alert to certain
         other key Department officials so that they could determine if this
         was a problem at the Department’s energy, science, and
         environment sites. A Department official subsequently advised us
         that a preliminary review of energy, science, and environment sites
         “confirmed that no unauthorized recording is presently being
         conducted by Protective Force contractors at those sites.” The
         NNSA subsequently advised us that all NNSA sites and its Service
         Center were tasked to review local policies, procedures, and
         activities relating to the recording of telephone and radio
         conversations.

         On September 30, 2005, we issued a final report on our findings
         regarding Sandia, entitled “Electronic Recording of Telephone and
         Radio Conversations by Sandia Protective Force Management”
         (DOE/IG-0701). We note that the Sandia report contained a
         finding that is also relevant to this report. Specifically, we found
         that the DOE Order pertaining to consensual listening-in to or
         recording telephone/radio conversations, which was issued in
         1992, was significantly outdated. We recommended that the
         appropriate DOE offices take action to update the Order, and
         management concurred with this recommendation.




Page 2                                    Observations and Conclusions
Details of Findings

BACKGROUND            The LANL Protective Force operates central alarm stations (CASs)
                      that monitor alarms, remote entry control systems, and operational
                      communications with protective force personnel. DOE Manual
                      470.4-2, “Physical Protection,” requires that “A continuous
                      electronic recording system must be provided for all security radio
                      traffic and telecommunications lines that provide support to the
                      CAS.” The manual also states that “This recording requires the
                      approval of the Office of Chief Information Officer and the Office of
                      Security or the Office of the Associate Administrator for Defense
                      Nuclear Security” and refers the reader to DOE Order 1450.4,
                      “Consensual Listening-in to or Recording Telephone/Radio
                      Conversations.” DOE Order 1450.4 states that conversations shall
                      not be consensually listened-in to or recorded except under the
                      following conditions:

                      •   Law Enforcement/National Security. When performed for law
                          enforcement, foreign intelligence, counterintelligence, or
                          communications security purposes in accordance with applicable
                          laws, regulations, and Executive orders governing such activities
                          and when documented by a written request citing the law
                          enforcement/national security need.

                      •   Public Safety. When performed for public safety purposes and
                          when documented by a written determination citing the public
                          safety needs. Proof of consent is the responsibility of the
                          recording party.

                      •   Employee with a Disability. When performed by an employee
                          with a disability and when documented by a determination that the
                          use of a listening-in to or recording device is required for full
                          performance of the duties of the employee’s position description.
                          Proof of consent is the responsibility of the recording party.

                      •   Public Service Monitoring. When performed by an official to
                          determine the quality of service, but only after an analysis of
                          alternatives and a written determination that telephone
                          conversation monitoring is required to perform the agency mission.
                          Proof of consent is the responsibility of the recording party.

                      •   Specific Instance (With All Party Agreement). When performed
                          with the consent of all parties for each specific instance. This
                          includes telephone conferences, secretarial recording, and other
                          acceptable administrative practices. Strict supervisory controls shall
                          be maintained to eliminate any possible abuse of this privilege.




Page 3                                                               Details of Findings
          According to the Order, consent to record a conversation may be
          obtained by prior mutual consent, an oral notification recorded at the
          beginning of a call, or the automatic superimposing of a distinct signal
          (e.g., beep tone) at regular intervals during the conversations.

CONSENT   We found that telephone conversations requiring all-party consent
          for each specific instance were recorded without obtaining such
          consent. Specifically, protective force management was routinely
          recording all incoming and outgoing calls on the telephone lines
          for the scheduling supervisors, shift captains, and Special
          Operations Division supervisor. The nature of most of these calls
          would require the “consent of all parties for each specific instance”
          under the provisions of DOE Order 1450.4. For example,
          protective force management was recording telephone
          conversations with protective force officers on issues relating to
          leave, overtime, training, scheduling, and discipline without
          obtaining the required consent. Protective force management also
          recorded telephone conversations involving individuals outside the
          protective force without their consent, such as other Los Alamos
          personnel, Federal Los Alamos Site Office staff, and individuals
          outside the Los Alamos complex.

          We were told by Los Alamos protective force officials that the
          recording of telephone conversations relating to administrative and
          disciplinary matters was done in order to have an exact record of
          conversations between protective force managers and officers on
          the protective force. We were also told that recording of
          conversations was routine and that all protective force officers were
          informed during new employee orientation that conversations on
          the telephone lines for the scheduling supervisors, shift captains,
          and Special Operations Division supervisor were recorded.

          It was unclear whether the notification to the protective force
          officers during new employee orientation met the DOE Order
          requirement for “consent for all parties for each specific instance.”
          Clearly, if callers were provided some type of notification during
          the conversation, such as telephone line beep tones, the notification
          of the protective force officers during their orientation might have
          been sufficient. Nevertheless, individuals from outside the
          protective force who called on these telephones lines were not
          notified that their conversations were being recorded. Los Alamos
          Site Office officials told us they were not aware of the full nature
          and scope of the protective force recording activities and
          confirmed that no deviations, waivers, variances, or exceptions to
          the consent requirements of DOE policy had been authorized.




Page 4                                                   Details of Findings
BEEP TONES     We found that telephone line beep tones, which were an acceptable
DISABLED       method of alerting all parties to the recording of a conversation,
               were disabled without an alternative notification mechanism being
               in operation. The recording system used by the protective force
               contained the beep tone feature. However, during our field work,
               we observed that the beep tone was disabled on several recorded
               lines, to include the telephone lines in the CAS, the shift captains’
               offices, and the scheduling supervisors’ telephone lines.

               A LANL official monitoring the performance of the protective
               force contractor told us that the beep tones on the CAS telephone
               lines were disabled because “portions of conversations were being
               overwhelmed” by the beep tones and the beep tones sometimes
               interfered with receiving critical information. Protective force
               officials could not explain why the beep tones were disabled on the
               shift captains’ and scheduling supervisors’ telephone lines.
               Further, protective force officials said they were not familiar with
               the requirements of DOE Order 1450.4 regarding consensually
               listening-in to or recording telephone conversations.

               Protective force management officials told us they did not realize
               that the beep tones had been disabled on the telephone lines in the
               CAS, the shift captains’ offices, and the scheduling supervisors’
               telephone lines. The officials told us they did not know how this
               had occurred. Protective force management officials
               acknowledged that they did not have written procedures for the use
               and operation of the recording system, to include specific
               authorities and procedures for enabling or disabling recording
               features.

RECORDS        We found that electronic records of telephone and radio
MANAGEMENT     conversations were retained and used without provision for
REQUIREMENTS   complying with records management requirements. DOE Order
               1450.4 states that “The recordings and records pertaining to
               listening-in to or recording of any conversations covered by this
               Order shall be used, safeguarded, and destroyed in accordance with
               the Departmental records management program.” The DOE
               records management program for “Records Maintained on
               Individuals” is found at Title 10, Code of Federal Regulations
               (CFR), Part 1008. This regulation includes provisions for access to
               records, disclosure to third parties, and establishment and
               maintenance of a system of records.

               We were told that the LANL protective force had archived
               numerous recordings of conversations over a period of at least five
               years. These archived files contained individual recorded



Page 5                                                        Details of Findings
                  conversations related to disciplinary action taken or contemplated
                  by protective force management, overtime discussions, and work
                  schedule and vacation issues. In some cases, written transcripts of
                  these recorded conversations were made and provided to protective
                  force management. However, the protective force had no policies
                  or procedures regarding storage, retrievability, access controls,
                  retention, or disposal of these recorded conversations. We were
                  told by protective force officials that protective force management
                  had not provided any guidance on these issues.

                  Protective force management officials stated that some recorded
                  conversations were used to “verify the facts” when questions arose
                  concerning notification by Laboratory employees that individual
                  vaults needed to be secured. They said that Laboratory managers
                  sometimes “challenged us” when the protective force identified
                  failures of Laboratory employees to perform appropriate steps to
                  ensure alarms were set on vault doors. Protective force
                  management officials acknowledged that the protective force had
                  no policies or procedures that implemented the DOE records
                  management program. Further, the officials acknowledged they
                  were not familiar with the requirements of the DOE records
                  management program as the requirements related to the recorded
                  conversations.

RECOMMENDATIONS   We recommend that the Manager, Los Alamos Site Office, take
                  immediate action to ensure that LANL:

                  1. Terminates recording operations that are not consistent with
                     DOE Manual 470.4-2 and DOE Order 1450.4.

                  2. Obtains “proof of consent” to record conversations, as required
                     by DOE Order 1450.4.

                  3. Conducts a full review of the use, maintenance, and storage of
                     recordings and records pertaining to recorded conversations to
                     assure full compliance with the Department’s records
                     management program.

                  4. Develops policies and procedures regarding storage,
                     retrievability, access controls, retention, and disposal of the
                     records relating to recorded conversations, consistent with the
                     Department’s records management program.




Page 6                                                          Recommendations
MANAGEMENT   In comments on our draft report, NNSA management identified
COMMENTS     specific corrective actions that LANL has taken or will take to
             address the report recommendations. Management’s comments are
             included in their entirety at Appendix B.

INSPECTOR    We found management’s comments to be responsive to our report
COMMENTS     recommendations.




Page 7                             Management and Inspector Comments
Appendix A

SCOPE AND     We conducted the majority of our inspection fieldwork from April
METHODOLOGY   to June 2005. We interviewed LANL protective force and Los
              Alamos Site Office management officials regarding the recording
              system. We interviewed individual protective force officers and
              reviewed protective force records relating to recording operations.
              We also reviewed DOE policies regarding the recording of
              telephone and radio conversations and DOE, CFR, and Privacy Act
              requirements relating to the maintenance of records associated with
              these recordings. In addition, we coordinated with the OIG Office
              of Investigations regarding possible criminal violations.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 8                                               Scope and Methodology
Appendix B




Page 9       Management Comments
Appendix B         (continued)




Page 10      Management Comments
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
